      NATIONAL CREDIT UNION ADMINISTRATION
                  OFFICE OF INSPECTOR GENERAL



              NCUA FINANCIAL STATEMENT AUDITS
                            FOR

                  OPERATING FUND
               SHARE INSURANCE FUND
            CENTRAL LIQUIDITY FACILITY
    COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                  For the year ended December 31, 2003

       Audited Financial Statements              Audit Report Number

           NCUA Operating Fund                        OIG-04-01
 National Credit Union Share Insurance Fund           OIG-04-02
          Central Liquidity Facility                  OIG-04-03
Community Development Revolving Loan Fund             OIG-04-04

                               March 31, 2004




                           _______________________
                                  Herb Yolles
                               Inspector General
                              EXECUTIVE SUMMARY

                            The National Credit Union Administration (NCUA) Office of
 PURPOSE AND SCOPE Inspector General contracted with the independent public
accounting firm of Deloitte & Touche to perform the financial statement audits of the
NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and the
Community Development Revolving Loan Fund, for the year ended December 31, 2003.

The purpose of the audits is to express an opinion on whether the financial statements
are fairly presented. The independent firm also reviewed the internal control structure
and evaluated compliance with laws and regulations, as part of their audit.

The audits were performed in accordance with generally accepted auditing standards
and Government Auditing Standards issued by the Comptroller General of the United
States.     These standards require the reporting of any personal impairment to
independence that could affect the auditor’s impartiality or the appearance of
impartiality. Prior to his appointment as Inspector General, the Inspector General
served as NCUA’s Deputy Director of the Office of Examination and Insurance; and as
the President of the Central Liquidity Facility. In order to avoid the appearance of an
independence impairment, the day to day and overall responsibility for oversight of the
financial statement audit was delegated to the Deputy Inspector General for Audits.

                                              The Inspector General contracted with
FINANCIAL STATEMENT CONTRACT
                                              Deloitte & Touche in August 2003 to perform
the financial statement audits mentioned above. The contract was for 2003, with
options for 2004 and 2005. The Deputy Inspector General for Audits is the contracting
officer’s technical representative for this contract.

                       Deloitte & Touche expressed unqualified opinions, stating that the
AUDIT RESULTS
                       financial statements present fairly, in all material respects, the
financial position of the NCUA Operating Fund, the Share Insurance Fund, the Central
Liquidity Facility, and the Community Development Revolving Loan Fund, at December
31, 2003, and the results of operations for the year then ended.

Although Deloitte & Touche does not express an overall opinion of the Funds’
compliance with laws and regulations, their testing of compliance did not disclose any
significant deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses in
their review of the Funds’ internal control structures pertinent to financial reporting.
However, during the performance of the audit, we developed recommendations related
to internal control over financial reporting and certain observations and
recommendations on other accounting, administrative, and operating matters. The
observations and recommendations section of this report is restricted to official use only.




                                            1
National Credit Union
Administration
Operating Fund
Financial Statements for the Years Ended
December 31, 2003 and 2002, and
Independent Auditors’ Reports




                                           1
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                 Page

INDEPENDENT AUDITORS’ REPORT                                      3

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2003 AND 2002:

 Balance Sheets                                                   4

 Statements of Revenues, Expenses, and Changes in Fund Balance    5

 Statements of Cash Flows                                         6

 Notes to Financial Statements                                   7-11

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL
  CONTROL OVER FINANCIAL REPORTING BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS     12




                                                 2
INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration

We have audited the accompanying balance sheets of the National Credit Union Administration Operating
Fund as of December 31, 2003 and 2002, and the related statements of revenues, expenses, and changes in
fund balance, and of cash flows for the years then ended. These financial statements are the responsibility of
the National Credit Union Administration Operating Fund’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Operating Fund as of December 31, 2003 and 2002, and the results of
its operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 24, 2004,
on our tests of the National Credit Union Administration Operating Fund’s compliance with certain
provisions of laws, regulations, contracts, and grants, and our consideration of its internal control over
financial reporting. This report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in considering the results of our audit.



February 24, 2004




                                                        3
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
DECEMBER 31, 2003 AND 2002
(Dollars in thousands)


ASSETS                                                2003       2002

ASSETS:
 Cash and cash equivalents                          $ 24,450   $ 18,582
 Due from National Credit Union Share
  Insurance Fund (Note 4)                             1,914        670
 Employee advances                                      339        254
 Other accounts receivable                              189         96
 Prepaid expenses                                       267         97
 Fixed assets—net of accumulated depreciation
  and amortization (Note 3)                          37,208     36,197

TOTAL ASSETS                                        $ 64,367   $ 55,896

LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                   $ 4,505    $ 3,311
 Obligations under capital leases (Note 5)            2,367        548
 Accrued wages and benefits                           5,455      4,987
 Accrued annual leave                                 8,232      7,669
 Accrued employee travel                                 77        776
 Notes payable to National Credit Union
  Share Insurance Fund (Note 4)                      26,484     28,922

       Total liabilities                             47,120     46,213

FUND BALANCE                                         17,247      9,683

TOTAL LIABILITIES AND FUND BALANCE                  $ 64,367   $ 55,896


See notes to financial statements.




                                                4
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2003 AND 2002
(Dollars in thousands)


                                                         2003       2002

REVENUES:
 Operating fees                                        $ 57,984   $ 53,820
 Interest                                                   427        565
 Other                                                      121        188

       Total revenues                                   58,532     54,573

EXPENSES (Note 4):
 Employee wages and benefits                            39,625     39,842
 Travel                                                  3,806      4,146
 Rent, communications, and utilities                     1,498      1,553
 Contracted services                                     2,224      1,987
 Other                                                   3,815      3,456

       Total expenses                                   50,968     50,984

EXCESS OF REVENUES OVER EXPENSES                         7,564      3,589

FUND BALANCE—Beginning of year                           9,683      6,094

FUND BALANCE—End of year                               $ 17,247   $ 9,683


See notes to financial statements.




                                       5
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2003 AND 2002
(Dollars in thousands)

                                                                          2003        2002

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                     $    7,564    $ 3,589
 Adjustments to reconcile excess of revenues over
   expenses to cash provided by operating activities:
    Depreciation and amortization                                          2,967      3,406
    Loss on disposal of employee residences held for resale                   21         54
    Loss on disposal of fixed assets                                          15         16
    Miscellaneous allowances                                                             (4)
 (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                   (1,244)     1,053
    Employee advances                                                        (85)       275
    Other accounts receivable                                                (93)        (3)
    Prepaid expenses                                                        (170)       168
 (Decrease) increase in liabilities:
    Accounts payable                                                       1,194      (2,084)
    Accrued wages and benefits                                               468         189
    Accrued annual leave                                                     563         138
    Accrued employee travel                                                 (699)

       Net cash provided by operating activities                          10,501      6,797

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets and employee residences held for resale        (1,086)     (1,517)
 Proceeds from sale of employee residences held for resale                   162         595

       Net cash used in investing activities                                (924)      (922)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable                                              (2,438)     (1,413)
 Principal payments under capital lease obligations                       (1,271)     (1,760)

       Net cash used in financing activities                              (3,709)     (3,173)

NET INCREASE IN CASH AND CASH EQUIVALENTS                                  5,868      2,702

CASH AND CASH EQUIVALENTS—Beginning of year                               18,582     15,880

CASH AND CASH EQUIVALENTS—End of year                                 $ 24,450      $ 18,582

SUPPLEMENTAL DISCLOSURE OF CASH FLOW INFORMATION:
 Interest paid during the years ended December 31, 2003 and 2002,
 was $743 and $1,210, respectively.

SUPPLEMENTAL DISCLOSURE OF NONCASH FINANCING ACTIVITIES:
 Capital lease obligations of $3,119 and $23 were incurred when the
 Fund entered into leases for new equipment during the years ended
 December 31, 2003 and 2002, respectively.

See notes to financial statements.


                                                              6
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2003 AND 2002


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the “Fund”) was created by the Federal
     Credit Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury
     under the management of the National Credit Union Administration (“NCUA”) Board for the purpose of
     providing administration and service to the Federal Credit Union System.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents—The Federal Credit Union Act permits the Fund to make investments in United
     States Government securities or securities guaranteed as to both principal and interest by the United
     States Government. Cash equivalents are highly liquid investments with original maturities of three
     months or less. All investments in 2003 and 2002 were cash equivalents and are stated at cost, which
     approximates fair value.

     Depreciation and Amortization—Building, furniture and equipment, equipment under capital leases, and
     leasehold improvements are recorded at cost. Depreciation and amortization are computed by the straight-
     line method over the estimated useful lives of the building, furniture and equipment, and the shorter of the
     estimated useful life or lease term for leasehold improvements. Estimated useful lives are forty years for the
     building and three to ten years for the furniture, equipment, and leasehold improvements.

     Operating Fees—The Fund assesses each federally chartered credit union an annual fee based on the
     credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
     providing administration and service to the Federal Credit Union System. The Fund recognizes this
     operating fee revenue ratably over the year.

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c) (1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

       Cash and cash equivalents, receivable from National Credit Union Share Insurance Fund
       (“NCUSIF”), employee advances, other accounts receivable, accounts and notes payable to NCUSIF,
       and other accounts payable are recorded at book values, which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.




                                                       7
     Accounting for Exit and Disposal Activities- The Fund accounts for exit and disposal activities in
     accordance with Statement of Financial Accounting Standards No. 146, Accounting for Costs
     Associated with Exit and Disposal Activities. This statement requires that a liability for a cost associated
     with an exit or disposal activity be recognized when the liability is incurred rather than the date of an
     entity’s commitment to an exit plan. The Fund’s conformance with this standard affects the timing of
     the recognition of costs of its regional restructuring plan described in Note 9.

3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                         2003           2002
       Office building and land                                                      $ 42,453       $ 42,453
       Furniture and equipment                                                         11,509         10,607
       Equipment under capital leases                                                   3,237          4,918

                     Total                                                              57,199         57,978
       Less: Accumulated depreciation and amortization                                 (19,991)       (21,781)
       Fixed assets—net                                                          $ 37,208     $ 36,197
     Accumulated amortization balances for equipment under capital leases as of December 31, 2003 and
     2002, were $860,000 and $4,432,000, respectively.

4.   TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board and derived from a
     study of actual usage. The allocation factor was 62.00% to NCUSIF for both 2003 and 2002,
     respectively. The cost of the services allocated to NCUSIF, which totaled approximately $83,158,000
     and $83,182,000 for 2003 and 2002, is reflected as a reduction of the corresponding expenses in the
     accompanying financial statements.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with NCUSIF for the purchase of
     a building. Interest costs incurred were approximately $11,000 and $46,000 for 2003 and 2002, respectively.
     The outstanding principal balances at December 31, 2003 and 2002, were $0 and $1,098,000, respectively.
     The balance of $0 reflects the payoff of the note.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
     note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a building in
     1993. Interest costs incurred were approximately $732,000 and $1,164,000 for 2003 and 2002,
     respectively. The note payable balances at December 31, 2003 and 2002, were approximately
     $26,484,000 and $27,824,000, respectively.




                                                       8
     The above notes require principal repayments as follows (in thousands):

                                                                                       Secured
                                                                                      Term Note

       2004                                                                           $ 1,341
       2005                                                                             1,341
       2006                                                                             1,341
       2007                                                                             1,341
       2008                                                                             1,341
       Thereafter                                                                      19,779
                                                                                    $ 26,484
     The variable rate on both notes is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 2003 and 2002 were 2.70% and 4.09%, respectively. The interest rates at
     December 31, 2003 and 2002, were 2.08% and 3.51%, respectively.

5.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into a number of lease agreements with
     vendors for the rental of office space as well as the lease of office equipment that includes laptops,
     printers, monitors, and copiers.

     Operating Leases—The Fund leases office space under lease agreements that expire through 2008.
     Office rental charges amounted to approximately $1,133,000 and $1,009,000 of which approximately
     $702,460 and $625,500 was reimbursed by NCUSIF for 2003 and 2002, respectively. In addition, the
     Fund\ leases office equipment under operating leases with lease terms of less than one year.
     Capital Leases—The Fund leases computer equipment under lease agreements that expire through 2008.

     The future minimum lease payments as of December 31, 2003, are as follows (in thousands):
                                                                          Operating     Capital
                                                                           Leases       Leases

              2004                                                         $ 1,069     $ 1,089
              2005                                                             823       1,059
              2006                                                             470         279
              2007                                                             461          14
              2008                                                             284           8

                     Total                                                 $ 3,107       2,449

              Less: Imputed interest                                                         82

              Present value of minimum
               lease payments                                                   $ 2,367
     Based on the allocation factor approved by the NCUA Board for 2003, NCUSIF will reimburse the Fund
     for approximately 62% of the future operating lease payments.

6.   RETIREMENT PLAN

     The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
     includes the Federal Employees’ Retirement System (“FERS”). Both plans are defined benefit


                                                      9
     retirement plans covering all of the employees of the Fund. FERS is comprised of a Social Security
     Benefits Plan, a Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a
     percentage of employees’ gross pay. Under the Savings Plan, employees can also elect additional
     contributions between 1% and 14% of their gross pay, and the Fund will match up to 5% of the
     employees’ gross pay. In 2003 and 2002, the Fund’s contributions to the plans were approximately
     $10,422,000 and $10,783,000, respectively, of which approximately $6,462,000 and $6,685,000 were
     reimbursed by NCUSIF, respectively.
     The Fund does not account for the assets of the above plans and does not have actuarial data with
     respect to accumulated plan benefits or the unfunded liability relative to eligible employees. These
     amounts are reported by the U.S. Office of Personnel Management for the Civil Service Retirement and
     Disability Fund and are not allocated to individual employers.

7.   DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows (in
     thousands):
                                                       December 31, 2003              December 31, 2002
                                                      Carrying     Fair              Carrying     Fair
                                                      Amount      Value              Amount      Value
      Cash and cash equivalents                       $ 24,450      $ 24,450        $ 18,582      $ 18,582
      Due from NCUSIF                                    1,914         1,914             670           670
      Employee advances                                    339           339             254           254
      Other accounts receivable                            189           189              96            96
      Accounts payable                                   4,505         4,505           3,311         3,311
      Obligation under capital lease                     2,367         2,367             548           548
      Notes payable to NCUSIF                           26,484        26,484          28,922        28,922
8.   CONTINGENCIES

     NCUA is currently a party to a number of disputes that involve or may involve litigation. In the opinion
     of management, the ultimate liability with respect to these disputes, if any, will not be material to
     NCUA’s financial position.

9.   RESTRUCTURING

     NCUA announced on January 29, 2003, a regional restructuring plan, previously approved by the Board
     on November 21, 2002. The restructuring plan relocated the Region VI office in Concord, California, to
     Tempe, Arizona, and renumbered it to Region V. The plan also closed the Region IV regional office in
     Chicago, Illinois. The process of relocating Region VI began early in 2003 and will be completed no
     later than December 2004. Region V, located in Austin, Texas, was renumbered to Region IV. Credit
     union supervision was aligned with the five regions and became effective as of January 1, 2004.

     NCUA estimates that the costs to be incurred for the regional restructuring plan are $3,636,000, which
     includes relocation costs of $3,000,000, and miscellaneous administrative and other costs of
     approximately $636,000. Approximately $2,185,000 of these costs was incurred during 2003. Based on
     the allocation factors approved by the NCUA Board, the Operating Fund is responsible for 38.00% for
     2003. The Fund’s estimated cost for the regional restructuring plan will be approximately $1,382,000.
     The SIF’s estimated cost for the regional restructuring plan will be approximately $2,254,000. In
     accordance with SFAS Statement No. 146, Accounting for Costs Associated with Exit and Disposal
     Activities, an accrual of approximately $1.4 million has been made in the Fund as of December 31, 2003.

                                                 ******



                                                     10
INDEPENDENT AUDITORS' REPORT ON COMPLIANCE AND ON INTERNAL CONTROL OVER
 FINANCIAL REPORTING BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
 GOVERNMENT AUDITING STANDARDS

Inspector General
National Credit Union Administration

We have audited the financial statements of the National Credit Union Administration Operating Fund (the
“Fund”) as of and for the year ended December 31, 2003, and have issued our report thereon dated
February 24, 2004. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States.

Compliance
As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts, and
grants, noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions was not an objective
of our audit, and accordingly, we do not express such an opinion. The results of our tests disclosed no
instances of noncompliance that are required to be reported under Government Auditing Standards.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the Fund’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements and not to provide assurance on the internal control over financial reporting. Our consideration of
the internal control over financial reporting would not necessarily disclose all matters in the internal control
over financial reporting that might be material weaknesses. A material weakness is a condition in which the
design or operation of one or more of the internal control components does not reduce to a relatively low level
the risk that misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. We noted no matters involving the internal control over financial
reporting and its operation that we consider to be material weaknesses.

However, we noted other matters involving the internal control over financial reporting that we have reported
to the management of the Fund in a separate letter dated February 24, 2004.

This report is intended solely for the information and use of the Inspector General, and the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Operating Fund and is not intended to be and should not be used by anyone other than these specified parties.



February 24, 2004




                                                      11
National Credit Union
Share Insurance Fund
Financial Statements for the Years Ended
December 31, 2003 and 2002, and
Independent Auditors' Reports




                                           1
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                                    Page

INDEPENDENT AUDITORS’ REPORT                         3


FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2003 AND 2002:

 Balance Sheets                                      4

 Statements of Operations                            5

 Statements of Fund Balance                          6

 Statements of Cash Flows                            7

 Notes to Financial Statements                      8-16

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING BASED
  UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                     17




                                    2
INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration

We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund as of
December 31, 2003 and 2002, and the related statements of operations, fund balance and cash flows for the
years then ended. These financial statements are the responsibility of the National Credit Union Share
Insurance Fund’s management. Our responsibility is to express an opinion on these financial statements based
on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Share Insurance Fund as of December 31, 2003 and 2002, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 24, 2004,
on our tests of the National Credit Union Share Insurance Fund’s compliance with certain provisions of laws,
regulations, contracts, and grants, and our consideration of its internal control over financial reporting. That
report is an integral part of an audit performed in accordance with Government Auditing Standards and should
be read in conjunction with this report in considering the results of our audit.



February 24, 2004
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
DECEMBER 31, 2003 AND 2002
(Dollars in thousands)


ASSETS                                                                   2003            2002

ASSETS:
 Investments (Note 6)                                              $ 4,709,610     $ 4,535,537
 Cash and cash equivalents                                           1,364,954       1,008,693
 Accrued interest receivable                                            45,761          69,174
 Capital assessment receivable                                                           3,697
 Assets acquired in assistance to insured credit unions                  12,217         15,417
 NCUSIF subordinated note                                                 1,711
 Notes receivable—National Credit Union
  Administration Operating Fund (Note 8)                                 26,484          28,922
 Other notes receivable and advances                                        880
 Fixed assets—net of accumulated depreciation
  and amortization (Note 3)                                                 934             265

TOTAL ASSETS                                                       $ 6,162,551     $ 5,661,705


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Estimated losses from supervised credit unions (Note 4)           $     76,667    $     47,543
 Amounts due to insured shareholders of liquidated credit unions          9,541           6,228
 Due to National Credit Union Administration
     Operating Fund (Note 8)                                              1,914             670
 Cash assistance liability                                                  100
 Accounts payable                                                             3               3
 Obligations under capital leases (Note 9)                                  936             165

       Total liabilities                                                 89,161          54,609

FUND BALANCE:
 Insured credit unions’ accumulated contributions                      4,704,596       4,267,169
 Insurance fund balance                                                1,368,794       1,339,927

       Total fund balance                                              6,073,390       5,607,096

TOTAL LIABILITIES AND FUND BALANCE                                 $ 6,162,551     $ 5,661,705


See notes to financial statements.




                                                      4
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2003 AND 2002
(Dollars in thousands)


                                                  2003        2002

REVENUES:
 Interest                                       $ 151,174   $ 213,252
 Other                                                761       1,226

       Total revenues                            151,935     214,478

EXPENSES (Note 8):
 Administrative expenses:
  Employee wages and benefits                     64,652      65,005
  Travel                                           6,210       6,764
  Rent, communications, and utilities              2,443       2,533
  Contracted services                              3,629       3,241
  Provision for insurance losses (Note 4)         38,043      12,513
  Other                                            8,091       7,824

       Total expenses                            123,068      97,880

EXCESS OF REVENUES OVER EXPENSES                $ 28,867    $ 116,598


See notes to financial statements.




                                            5
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF FUND BALANCE
YEARS ENDED DECEMBER 31, 2003 AND 2002
(Dollars in thousands)


                                                   Insured
                                                Credit Unions’   Insurance
                                                Accumulated        Fund
                                                Contributions     Balance

BALANCE AT JANUARY 1, 2002                       $ 3,812,459     $ 1,223,329

 Contributions from insured credit unions           454,710

 Excess of revenues over expenses                                   116,598

BALANCE AT DECEMBER 31, 2002                      4,267,169       1,339,927

 Contributions from insured credit unions           437,427

 Excess of revenues over expenses                                    28,867

BALANCE AT DECEMBER 31, 2003                     $ 4,704,596     $ 1,368,794


See notes to financial statements.




                                            6
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2003 AND 2002
(Dollars in thousands)

                                                                           2003         2002

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                    $     28,867    $ 116,598
 Adjustments to reconcile excess of revenues over
  expenses to cash provided by operating activities:
   Depreciation and amortization                                              575           764
   Reserves (recoveries) relating to losses from supervised
     credit unions—net                                                     29,124        (3,480)
 Decrease (increase) in assets:
   Accrued interest receivable                                             23,413        (1,996)
   Capital assessment receivable                                            3,697        (3,697)
   Assets acquired in assistance to insured credit unions, net              3,200        (4,980)
   NCUSIF subordinated notes                                               (1,711)        2,000
   Other notes receivable and advances                                       (880)          173
 Increase (decrease) in liabilities:
   Amounts due to National Credit Union
     Administration Operating Fund                                          1,244        (1,053)
   Amounts due to insured shareholders of liquidated credit unions          3,313           136
   Accounts payable                                                                         (61)
   Cash assistance liability                                                  100

       Net cash provided by operating activities                           90,942       104,404

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments                                             (2,473,375)     (2,493,156)
 Proceeds from maturities of investments                              2,299,302       1,606,197
 Purchase of fixed assets                                                    (4)
 Collections on note receivable—National Credit
  Union Administration Operating Fund                                       2,438         1,413

       Net cash used in investing activities                             (171,639)     (885,546)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                 437,427       454,710
 Principal payments under capital lease obligation                           (469)         (628)

       Net cash provided by financing activities                          436,958       454,082

NET INCREASE (DECREASE) IN CASH AND CASH
 EQUIVALENTS                                                              356,261      (327,060)
CASH AND CASH EQUIVALENTS—Beginning of year                              1,008,693    1,335,753
CASH AND CASH EQUIVALENTS—End of year                                $ 1,364,954     $ 1,008,693


See notes to financial statements.


                                                     7
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2003 AND 2002


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Share Insurance Fund (NCUSIF, the “Fund”) was created by the Public Law
     91-468 (Title II of the Federal Credit Union Act), which was amended in 1984 by Public Law 98-369.
     The Fund was established as a revolving fund in the United States Treasury under the management of
     the National Credit Union Administration (“NCUA”) Board for the purpose of insuring member share
     deposits in all federal credit unions and in qualifying state credit unions that request insurance. The
     maximum amount of insurance is $100,000 per shareholder account.

     NCUA exercises direct supervisory authority over federal credit unions and coordinates required
     supervisory involvement with the state chartering authority for state-chartered credit unions insured by
     the Fund. Insured credit unions are required to report certain financial and statistical information to
     NCUA on a semiannual or quarterly basis depending on the size of the credit union and are subject to
     periodic examination by NCUA. Information derived through the supervisory and examination process
     provides the Fund with the ability to identify credit unions experiencing financial difficulties that may
     require assistance from the Fund.

     Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their
     operations if these difficulties are considered by the Fund to be temporary or correctable. This special
     assistance may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or
     cash assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a
     merger partner may be sought. If the assistance or merger alternatives are not practical, the credit union
     is liquidated.

     The first form of special assistance is waivers of statutory reserve requirements, whereby the credit
     union is permitted to cease making additions to its regular reserve and, in more severe cases, to
     commence charging operating losses against its regular reserve. When all reserves have been depleted
     by the credit union, the Fund may provide a reserve guarantee account in the amount of the reserve
     deficit. In addition, the Fund may provide cash assistance in the form of share deposits and NCUSIF
     subordinated notes, or may purchase assets from the credit union.

     Mergers of financially troubled credit unions with stronger credit unions may also require Fund
     assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
     Fund, and/or guarantees of the values of certain assets (primarily loans).

     When a credit union is no longer able to continue operating and the merger and assistance alternatives
     are not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares
     up to the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
     guaranteed to third-party purchasers by the Fund.




                                                       8
2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents and Investments—Title II of the Federal Credit Union Act limits the Fund’s
     investments to United States Government securities or securities guaranteed as to both principal and
     interest by the United States Government. Cash equivalents are highly liquid investments with original
     maturities of three months or less. All investments are classified as held-to-maturity under Statement of
     Financial Standards No. 115, Accounting for Certain Investments in Debt and Equity Securities.
     Accordingly, the Fund records investments at amortized cost. Amortized cost is the face value of the
     securities plus the unamortized premium or less the unamortized discount.

     Depreciation and Amortization—Furniture, equipment and capital leases are recorded at cost.
     Depreciation and amortization are computed by the straight-line method over the estimated useful lives
     of the furniture and equipment and the shorter of the estimated useful life or lease term for capital leases.
     Estimated useful lives are three years for the furniture, equipment and capital leases.

     Advances to Insured Credit Unions—The Fund provides cash assistance in the form of interest and
     noninterest-bearing NCUSIF (“National Credit Union Share Insurance Fund”) Subordinated notes
     (carried at face value), share deposits, and loans to certain credit unions to assist them in continuing their
     operations.

     Assets Acquired from Credit Unions—The Fund acquires the assets of liquidating credit unions pending
     their ultimate disposition. To assist in the merger of credit unions, the Fund may purchase certain credit
     union assets. In addition, the Fund may provide cash assistance by acquiring non-performing assets of a
     credit union experiencing financial difficulty. These acquired assets are maintained by the Asset
     Management and Assistance Center in Austin, Texas, and are recorded by the Fund at their estimated net
     realizable value.

     Premium Revenue—The Fund may assess each insured credit union a premium charge for insurance in
     an amount stated as a percentage of insured shares outstanding as of December 31 of the preceding
     insurance year if the Fund’s equity ratio is less than 1.3%. The NCUA Board waived the 2003 and 2002
     share insurance premiums (see Note 5).

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c)(1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

     a.   Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate fair
          values.

     b.   Investments—The fair value for investments is the quoted market value.

     c.   NCUSIF Subordinated Notes and Other Notes Receivable—It is not practicable to estimate the fair
          value of these assets as there is no secondary market. The Fund has the ability and the intention to
          hold these notes to maturity.

     d.   Other—Accrued interest receivable, capital assessment receivable, notes receivable from NCUA
          Operating Fund, payable to NCUA Operating Fund, lease obligations, due to insured shareholders
          of liquidated credit unions and other accounts payable are recorded at book values, which
          approximate the respective fair values.


                                                        9
     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions, particularly the estimated losses from supervised credit unions, that affect the reported
     amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from management’s estimates.

     Accounting for Exit and Disposal Activities—The Fund accounts for Exit and Disposal activities in
     accordance with Statement of Financial Accounting Standards No. 146, Accounting for Costs
     Associated with Exit and Disposal Activities. This statement requires that a liability for a cost associated
     with an exit or disposal activity be recognized when the liability is incurred rather than the date of an
     entity’s commitment to an exit plan. The Fund’s conformance with this standard affects the timing of
     the recognition of costs of its regional restructuring plan described in Note 13, Restructuring.

     Recent Accounting Pronouncements—In November 2002, the Financial Accounting Standards Board
     issued Interpretation No. 45, Guarantor’s Accounting and Disclosure Requirements for Guarantees,
     Including Indirect Guarantees of Indebtedness of Others (“FIN 45”). This interpretation elaborates on
     the existing disclosure requirements for most guarantees, including loan guarantees. It also clarifies that
     at the time an entity issues a guarantee, the entity must recognize an initial liability for the fair value of
     the obligations it assumes under that guarantee and must disclose that information in its financial
     statements. This guidance does not apply to certain guarantee contracts, such as those issued by
     insurance companies or for a lessee’s residual value guarantee embedded in a capital lease. The initial
     recognition and measurement provisions of FIN 45 apply on a prospective basis to guarantees issued or
     modified after December 31, 2002, regardless of the guarantor’s fiscal year-end. The disclosure
     requirements were effective for financial statements of interim or annual periods ending after
     December 15, 2002. The adoption of FIN 45 did not have a material impact on its financial position or
     results of operations of the Fund in 2003.

3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                               December 31,
                                                                                              2003      2002
       Furniture and equipment                                                              $ 526        $ 522
       Equipment under capital leases                                                        1,240        1,781
              Total                                                                          1,766         2,303
       Less: Accumulated depreciation and amortization                                         (832)      (2,038)
       Total fixed assets—net                                                       $ 934       $ 265
     Accumulated amortization balances for equipment under capital leases as of December 31, 2003 and
     2002, totaled $310,000 and $1,628,000, respectively.




                                                        10
4.   PROVISION FOR INSURANCE LOSSES

     Management identifies credit unions experiencing financial difficulty through the Fund’s supervisory
     and examination process. The estimated losses from these supervised credit unions are determined by
     management on a specified case basis. Management also evaluates overall economic trends and monitors
     potential system-wide risk factors such as increasing levels of consumer debt, bankruptcies, and
     delinquencies. Nonspecified case reserve requirements are determined based upon an assessment of
     insured risk and historic loss experience. The anticipated losses are net of estimated recoveries from the
     disposition of the assets of failed credit unions.

     Total insurance in force as of December 31, 2003 and 2002, is $479 billion and $443 billion,
     respectively, which includes natural person and corporate credit unions. The total net reserves for
     identified and anticipated losses from supervised credit unions’ failures is $77 million and $48 million at
     December 31, 2003 and 2002, respectively. Should there be no recoveries provided during the resolution
     process, possible additional reserves for $18 million and $23 million would be required as of
     December 31, 2003 and 2002, respectively.

     In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
     loans) to third-party purchasers or to credit unions to facilitate mergers. The Fund would be obligated
     upon non-performance. Such guarantees totaled approximately $0 at both December 31, 2003 and 2002.
     The estimated losses from asset and merger guarantees are determined by management on a case-by-
     case evaluation.

     In addition, the Fund may grant a guaranteed line-of-credit to a third party credit provider, such as a
     corporate credit union or bank, if a credit union has a current or immediate liquidity concern and the
     credit provider has refused to extend credit without a guarantee. The Fund would be obligated if the
     credit union failed to perform. Total line-of-credit guarantees of credit unions at December 31, 2003 and
     2002, are approximately $800,000 and $1,800,000, respectively. The total balances outstanding under
     these line-of-credit guarantees at December 31, 2003 and 2002, are approximately $126,000 and
     $80,000, respectively.

     The activity in the reserves for estimated losses from supervised credit unions was as follows (in
     thousands):

                                                                                           Year Ended
                                                                                          December 31,
                                                                                        2003        2002

       BEGINNING BALANCE                                                             $ 47,543       $ 51,023

        Insurance losses                                                               (15,006)      (21,625)
        Recoveries                                                                       6,087         5,632
        Provision for insurance losses                                                  38,043        12,513

       ENDING BALANCE                                                                $ 76,667       $ 47,543




                                                      11
5.   FUND CAPITALIZATION

     The Credit Union Membership Access Act of 1998 (“CUMAA”) mandated changes to the Fund’s
     capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
     with the Fund a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
     each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
     determined by the NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in
     the case of an insured credit union with total assets of not more than $50,000,000; and (ii) semiannually,
     in the case of an insured credit union with total assets of $50,000,000 or more. The annual and
     semiannual adjustments are based on member share deposits outstanding as of December 31 of the
     preceding year and June 30 of the current year, respectively. The 1% contribution will be returned to the
     insured credit union in the event that its insurance coverage is terminated, or is obtained from another
     source, or the operations of the Fund are transferred from the NCUA Board.

     The CUMAA mandates certain premium charges from insured credit unions and distributions from the
     Fund under certain circumstances. A premium charge to insured credit unions is required if the Fund’s
     equity ratio (as defined in the CUMAA) falls below 1.2% of insured shares. Also, pro rata distributions
     to insured credit unions after each calendar year are required if, as of year-end:

     (i)   Any loans to the Fund from the Federal Government, and any interest on those loans, have been
           repaid;

     (ii) The Fund’s equity ratio exceeds the normal operating level (as defined in the CUMAA, an equity
          ratio specified by the NCUA Board, which shall be not less than 1.2% and not more than 1.5%);
          and

     (iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1.0%.

     The NCUA Board has determined that the normal operating level is 1.30% at December 31, 2003 and
     2002. The calculated equity ratios at both December 31, 2003 and 2002 were 1.27%.

     Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which are
     based upon year-end reports of insured shares. Accordingly, dividends associated with insured shares at
     year-end are declared and paid in the subsequent year.

     The NCUA Board has declared that no dividends were payable on insured shares as of December 31,
     2003 and 2002, because the equity ratios of 1.27% were below the normal operating level of 1.30%.
     Total insured shares as of December 31, 2003 and 2002, were $479 billion and $443 billion,
     respectively.




                                                      12
6.   INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured credit unions
     and liquidation activities is invested in U.S. Treasury securities.

     Investments consist of the following (in thousands):

                                                               December 31, 2003
                                        Yield to                   Gross       Gross               Estimated
                                       Maturity      Amortized   Unrealized Unrealized              Market
                                       at Market       Cost        Gains       Losses                Value

       U.S. TREASURY
        SECURITIES:
        Maturities up to one year         2.87 % $ 2,536,670         $ 19,986      $    -        $ 2,556,656
        Maturities after one year
         through five years               1.74 %     2,172,940          5,530                      2,178,469

              Total                                 $ 4,709,610      $ 25,516      $    -        $ 4,735,125

                                                               December 31, 2002
                                        Yield to                   Gross       Gross               Estimated
                                       Maturity      Amortized   Unrealized Unrealized              Market
                                       at Market       Cost        Gains       Losses                Value

       U.S. TREASURY
        SECURITIES:
        Maturities up to one year         4.59 % $ 2,224,524         $ 36,008      $    -        $ 2,260,532
        Maturities after one year
         through five years               3.18 %     2,311,013         56,394                      2,367,407
                Total                              $ 4,535,537     $ 92,402      $    -        $ 4,627,939
     Total investment purchases during 2003 and 2002 were approximately $2.4 billion and $2.5 billion,
     respectively. Investment maturities during 2003 and 2002 were approximately $2.2 billion and $1.6
     billion, respectively. The Fund has the capability and management has the intention to hold all
     investments held at December 31, 2003 and 2002, to maturity. There were no investment sales during
     2003 and 2002.

7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United
     States, upon authorization by the NCUA Board, up to a maximum of $100,000,000. The NCUA Central
     Liquidity Facility (“CLF”) is authorized to make advances to the Fund under terms and conditions
     established by the NCUA Board. No borrowings were obtained from these sources during 2003 and
     2002.




                                                      13
8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
     Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
     NCUA Board and derived from a study of actual usage conducted by the management of these Funds.
     The allocation factor was 62.00% to the Fund for each in 2003 and 2002. The cost of services provided
     by the NCUA Operating Fund was approximately $83,158,000 and $83,182,000 for 2003 and 2002,
     respectively, and includes pension contributions of approximately $6,462,000 and $6,685,000 to the
     Civil Service Retirement System and Federal Employees Retirement System defined benefit retirement
     plans for 2003 and 2002, respectively.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with the NCUA Operating
     Fund. Interest received was approximately $11,000 and $46,000 for 2003 and 2002, respectively. The
     note receivable balances at December 31, 2003 and 2002, were approximately $0 and $1,098,000,
     respectively. The balance of $0 reflects the payoff of the note.

     In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
     term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund as
     needed to fund the costs of constructing a building. Interest income was approximately $732,000 and
     $1,164,000 for 2003 and 2002, respectively. The note receivable balances at December 31, 2003 and
     2002, were approximately $26,484,000 and $27,824,000, respectively.

     The above note matures as follows (in thousands):

                                                                                  Secured
                                                                                 Term Note
       2004                                                                       $ 1,341
       2005                                                                         1,341
       2006                                                                         1,341
       2007                                                                         1,341
       2008                                                                         1,341
       Thereafter                                                                  19,779
              Total                                                                 $ 26,484
     The variable rate on both term notes is equal to the Fund’s prior-month yield on investments. The
     average interest rates during 2003 and 2002 were approximately 2.70% and 4.09%, respectively. At
     December 31, 2003 and 2002, the rates were 2.08% and 3.51%, respectively.

     The NCUA Operating Fund leases certain office space and equipment under operating lease agreements
     that expire through 2008. Based on the allocation factor determined by the NCUA’s Board, the Fund
     reimburses the NCUA Operating Fund approximately 62.00% of the total lease payments. The cost of
     services provided by the NCUA Operating Fund includes rental charges of approximately $702,460 and
     $625,500 for 2003 and 2002, respectively.




                                                    14
     The NCUA Operating Fund’s total future minimum lease payments on operating leases as of
     December 31, 2003, are as follows (in thousands):
       2004                                                                        $ 1,069
       2005                                                                            823
       2006                                                                            470
       2007                                                                            461
       2008                                                                            284

      Total                                                                        $ 3,107
9.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into lease agreements with vendors for the
     lease of equipment that includes computers, laptops, and printers. The Fund leases computer equipment
     under capital lease agreements that expire through 2006.

     A schedule of future minimum lease payments as of December 31, 2003, is as follows (in thousands):
       2004                                                                        $ 423
       2005                                                                          423
       2006                                                                          106

       Total                                                                         952
       Less: Imputed interest                                                        (16)
       Present value of net minimum lease payments                                 $ 936

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows:

                                              December 31, 2003                   December 31, 2002
                                            Carrying        Fair                Carrying        Fair
                                            Amount         Value                Amount         Value
       Investments                        $ 4,709,610     $4,735,125          $ 4,535,537      $ 4,627,939
       Cash and cash equivalents            1,364,954      1,364,954            1,008,693        1,008,693
       Accrued interest receivable             45,761         45,761               69,174           69,174
       Capital assessment receivable                                                3,697            3,697
       Notes receivable—NCUA
        Operating Fund                        26,484           26,484              28,922          28,922
       Amounts due to insured
        shareholders of liquidated
        credit unions                           9,541           9,541               6,228            6,228
       Due to NCUA Operating Fund               1,914           1,914                 670              670
       Accounts payable                             3               3                   3                3
       Lease obligation                           936             936                 165              165

11. CONCENTRATIONS

     There are no significant concentrations of member share deposits within any region of the United States.
     Concentrations of member shares do exist within the manufacturing, governmental, and educational
     industries.


                                                     15
12. CONTINGENCIES

   NCUA is currently a party to a number of disputes that involve or may involve litigation. In the opinion
   of management, the ultimate liability with respect to these disputes, if any, will not be material to
   NCUA’s financial position.

13. RESTRUCTURING

   NCUA announced on January 29, 2003, a regional restructuring plan, previously approved by the Board
   on November 21, 2002. The restructuring plan relocated the Region VI office in Concord, California, to
   Tempe, Arizona, and renumbered it to Region V. The plan also closed the Region IV regional office in
   Chicago, Illinois. The process of relocating Region VI began early in 2003 and will be completed no
   later than December 2004. Region V, located in Austin, Texas, was renumbered to Region IV. Credit
   union supervision was aligned with the five regions and became effective as of January 1, 2004.

   NCUA estimates that the costs to be incurred for the regional restructuring plan are $3,636,000, which
   includes relocation costs of $3,000,000, and miscellaneous administrative and other costs of
   approximately $636,000. Approximately $2,185,000 of these costs was incurred during 2003. Based on
   the allocation factors approved by the NCUA Board, the NCUSIF is responsible for 62.00% for 2003. .
   The Fund’s estimated cost for the regional restructuring plan will be approximately $2,254,000. The
   Operating Fund’s estimated cost for the regional restructuring plan will be approximately $1,382,000. In
   accordance with SFAS Statement No. 146, Accounting for Costs Associated with Exit and Disposal
   Activities, an accrual of approximately $1.4 million has been made in the NCUA Operating Fund as of
   December 31, 2003, of which $.9 million was allocated to the NCUSIF through the overhead transfer.

                                               ******




                                                   16
INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS

Inspector General
National Credit Union Administration

We have audited the financial statements of the National Credit Union Share Insurance Fund (the “Fund”) as
of and for the year ended December 31, 2003, and have issued our report thereon dated February 24, 2004.
We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States.

Compliance
As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts, and
grants, noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions was not an objective of
our audit, and accordingly, we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance that are required to be reported under Government Auditing Standards.

Internal Control Over Financial Reporting
In planning and performing our audit, we considered the Fund’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements and not to provide assurance on the internal control over financial reporting. Our consideration of
the internal control over financial reporting would not necessarily disclose all matters in the internal control
over financial reporting that might be material weaknesses. A material weakness is a condition in which the
design or operation of one or more of the internal control components does not reduce to a relatively low level
the risk that misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. We noted no matters involving the internal control over financial
reporting and its operation that we consider to be material weaknesses.

However, we noted other matters involving the internal control over financial reporting that we have reported
to the management of the Fund in a separate letter dated February 24, 2004.

This report is intended solely for the information and use of the Inspector General, and the Board of the
National Credit Union Administration, and the management of the National Credit Union Share Insurance Fund
and is not intended to be and should not be used by anyone other than these specified parties.



February 24, 2004


                                                      17
National Credit Union
Administration
Central Liquidity Facility
Financial Statements for the Years Ended
December 31, 2003 and 2002, and
Independent Auditors’ Reports




                                           1
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                               Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS
  FOR THE YEARS ENDED DECEMBER 31, 2003 AND 2002                3

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2003 AND 2002:

 Balance Sheets                                                 4

 Statements of Operations                                       5

 Statements of Members’ Equity                                  6

 Statements of Cash Flows                                       7

 Notes to Financial Statements                                 8-11

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL
  CONTROL OVER FINANCIAL REPORTING BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS   12




                                    2
INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (“CLF”) as of December 31, 2003 and 2002, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the responsibility of
CLF’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Central Liquidity Facility as of December 31, 2003 and 2002, and the
results of its operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 24, 2004,
on our tests of the National Credit Union Administration Central Liquidity Facility’s compliance with certain
provisions of laws, regulations, contracts, and grants and on our consideration of its internal control over
financial reporting. That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in considering the results of our audit.



February 24, 2004
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
DECEMBER 31, 2003 AND 2002
(In thousands)


ASSETS                                              2003            2002

ASSETS:
 Cash                                         $         10    $         11
 Investments with U.S. Central Credit
  Union (Notes 5, 8, and 9)                       1,238,056       1,081,362
 Accrued interest receivable                          3,653           5,042

TOTAL ASSETS                                  $ 1,241,719     $ 1,086,415


LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Member deposits (Note 7)                     $     11,522    $     13,905
 Accounts payable and other liabilities                136             108

       Total liabilities                            11,658          14,013

MEMBERS’ EQUITY:
 Capital stock—required (Note 7)                  1,218,654       1,060,995
 Retained earnings                                   11,407          11,407

       Total members’ equity                      1,230,061       1,072,402

TOTAL LIABILITIES AND MEMBERS’ EQUITY         $ 1,241,719     $ 1,086,415


See notes to financial statements.




                                          4
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2003 AND 2002
(In thousands)


                                              2003       2002

REVENUE—Investment income                   $ 14,991   $ 21,965

EXPENSES (Note 10):
 Operating expenses:
  Group agent service fee                         1          2
  Personnel services                            126        124
  Other services                                 42         40
  Rent, communications, and utilities             7         10
  Personnel benefits                             26         25
  Supplies and materials                          2          2
  Printing and reproduction                       5          4

       Total operating expenses                 209        207

 Interest—member deposits                                  169
 Interest-liquidity reserve                     105

       Total expenses                           314        376

EXCESS OF REVENUE OVER EXPENSES             $ 14,677   $ 21,589


See notes to financial statements.




                                        5
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS’ EQUITY
YEARS ENDED DECEMBER 31, 2003 AND 2002
(In thousands)


                                              Capital     Retained
                                              Stock       Earnings

BALANCE—January 1, 2002                     $ 956,709     $ 11,402

 Issuance of required capital stock            105,519

 Redemption of required capital stock           (1,233)

 Dividends                                                 (21,584)

 Excess of revenue over expenses                            21,589

BALANCE—December 31, 2002                    1,060,995      11,407

 Issuance of required capital stock            158,987

 Redemption of required capital stock           (1,328)

 Dividends                                                 (14,677)

 Excess of revenue over expenses                            14,677

BALANCE—December 31, 2003                   $ 1,218,654   $ 11,407


See notes to financial statements.




                                        6
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2003 AND 2002
(In thousands)


                                                                       2003            2002

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenue over expenses                                  $    14,677     $ 21,589
 Adjustments to reconcile excess of revenue over expenses
  to net cash provided by operating activities:
  Decrease in accrued interest receivable                                1,389               53
  Increase (decrease) in accounts payable and other liabilities             28                6

       Net cash provided by operating activities                       16,094          21,648

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments—net                                          (156,694)   (101,440)

       Net cash used in investing activities                          (156,694)   (101,440)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                             959           2,226
 Issuance of required capital stock                                   158,987         105,519
 Dividends                                                            (14,677)        (21,584)
 Withdrawal of member deposits                                         (3,342)         (5,138)
 Redemption of required capital stock                                  (1,328)         (1,233)

       Net cash provided by financing activities                      140,599          79,790

NET DECREASE IN CASH                                                        (1)              (2)

CASH, BEGINNING OF YEAR                                                    11                13

CASH, END OF YEAR                                                 $        10     $          11

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION—Cash paid during the year for:
 Interest                                                         $       105     $      -


See notes to financial statements.




                                                      7
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2003 AND 2002


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (“CLF”) was created by the
     National Credit Union Central Liquidity Facility Act (the “Act”). The CLF is designated as a mixed-
     ownership government corporation under the Government Corporation Control Act. The CLF exists
     within the National Credit Union Administration (“NCUA”) and is managed by the National Credit
     Union Administration Board. The CLF became operational on October 1, 1979.

     The purpose of the CLF is to improve general financial stability by meeting the liquidity needs of credit
     unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting—The CLF maintains its accounting records on the accrual basis of accounting.

     Loans and Allowance for Loan Losses—Loans, when made to members, are on a short-term or long-
     term basis. For all loans, the CLF may obtain a security interest in the assets of the borrower. In
     determining the allowance for loan losses, when applicable, the CLF evaluates the collectibility of its
     loans to members through examination of the financial condition of the individual borrowing credit
     unions and the credit union industry in general.

     Investments—The CLF invests in redeposits and share accounts at U.S. Central Credit Union (see Notes
     5 and 8). All other investments are short-term with no maturities in excess of one year. All investments
     are classified as held-to-maturity. Accordingly, the CLF records investments at amortized cost.
     Amortized cost is the face value of the securities plus the unamortized premium or less the unamortized
     discount.

     Fair Value of Financial Instruments—The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

     a.   Cash—The carrying amounts for cash approximate fair value.

     b.   Investments—Securities held have maturities of one year or less and, as such, the carrying amounts
          approximate fair value.

     c.   Loans—For loans advanced to member credit unions, the carrying amounts approximate fair value.

     d.   Member Deposits—Funds maintained with the CLF in excess of required capital amounts are
          recorded as member deposits. These deposits are due upon demand and the carrying amounts
          approximate the fair value.




                                                      8
     e.   FFB Notes Payable—For notes issued to the Federal Financing Bank, when applicable, the
          carrying amounts approximate fair value.

     f.   Other—Accrued interest receivable, accounts payable and other liabilities are recorded at book
          values, which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates. Certain amounts
     have been reclassified in the current year.

3.   GOVERNMENT REGULATIONS

     The CLF is subject to various Federal laws and regulations. The CLF’s operating budget requires
     Congressional approval, and the CLF may not make loans to members for the purpose of expanding
     credit union loan portfolios. The CLF’s investments are restricted to obligations of the United States
     Government and its agencies, deposits in Federally insured financial institutions, and shares and deposits
     in credit unions. Borrowing is limited by statute to twelve times the subscribed capital stock and surplus.
     However, there is a Congressional limitation of $1.5 billion on funds that are borrowed and then loaned
     out at any one point in time.

     At December 31, 2003 and 2002, the CLF was in compliance with its borrowing authority. Borrowings
     would be from the Federal Financing Bank with interest generally payable upon maturity (see Note 12).

4.   LOANS TO MEMBERS

     There were no loans or loan commitments outstanding at December 31, 2003 and 2002. The CLF can
     provide members with extended loan commitments.

5.   FUNDS ON DEPOSIT WITH U.S. CENTRAL CREDIT UNION

     Funds not currently required for operations are invested as follows (in thousands):

                                                                                       December 31,
                                                                                    2003         2002

      U.S. Central Credit Union Redeposit account (see Note 8)                  $ 1,238,056      $ 1,081,362
6.   BORROWING AUTHORITY

     The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF in the event
     that the Board certifies to the Secretary that the CLF does not have sufficient funds to meet the liquidity
     needs of credit unions. This authority to lend is limited to such extent and in such amounts as are
     provided in advance by Congressional Appropriation Acts. On December 23, 1981, the President signed
     PL 97-101, which provided $100 million of permanent indefinite borrowing authority that may be
     provided by the Secretary of the Treasury to the CLF to meet emergency liquidity needs of credit
     unions. Borrowings would be from the Federal Financing Bank with interest generally payable upon
     maturity (see Note 12).




                                                       9
7.   CAPITAL STOCK AND MEMBER DEPOSITS

     The required capital stock account represents subscriptions remitted to the CLF by member credit
     unions. Regular members’ required subscription amounts equal one-half of one percent of their paid-in
     and unimpaired capital and surplus, one-half of which is required to be remitted to the CLF. Agent
     members’ required subscription amounts equal one-half of one percent of the paid-in and unimpaired
     capital and surplus of all of the credit unions served by the agent member, one-half of which is required
     to be remitted to the CLF. In both cases, the remaining one-half of the subscription is required to be held
     in liquid assets by the member credit unions subject to call by the National Credit Union Administration
     Board. These unremitted subscriptions are not reflected in the CLF’s financial statements. Subscriptions
     are adjusted annually to reflect changes in the member credit unions’ paid-in and unimpaired capital and
     surplus. Dividends are declared and paid on required capital stock.

     Member deposits represent amounts remitted by members over and above the amount required for
     membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
     required capital stock.

8.   U.S. CENTRAL CREDIT UNION MEMBERSHIP

     During fiscal year 1984, the CLF accepted a membership request from U.S. Central Credit Union
     (“USC”) on behalf of its corporate credit union members. At December 31, 2003 and 2002,
     $1,168,602,000 and $1,015,902,000, respectively, of the required portion of subscribed capital stock
     were purchased from the CLF by USC on behalf of its member credit unions. The CLF has 31 and 32
     corporate credit union members as of December 31, 2003 and 2002, respectively.

     In addition, by accepting the USC membership request, the CLF was initially committed to reinvest all
     but $50,000,000 of its total share capital in USC at market rates of interest. Beginning April 1, 1996, the
     CLF reinvests all of its agent member share capital in USC at market rates of interest. At December 31,
     2003 and 2002, approximately $1,238,056,000 and $1,081,362,000, respectively, were invested in USC
     accounts at 1.17% and 1.85%, respective yields.

9.   CONCENTRATION OF CREDIT RISK

     At December 31, 2003 and 2002, the CLF has a concentration of credit risk for its investments on
     deposit with USC of approximately $1,238,056,000 and $1,081,362,000, respectively (see Notes 5
     and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

     The National Credit Union Administration provides the CLF with data processing and other
     miscellaneous services and supplies. In addition, the National Credit Union Administration pays CLF’s
     employees’ salaries and benefits as well as the CLF’s portion of monthly building operating costs. The
     CLF reimburses the National Credit Union Administration on a monthly basis for these items. Total
     reimbursements were approximately $205,000 for each of the years ended December 31, 2003 and 2002.




                                                      10
11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

    The carrying amount and the estimated fair value of the CLF’s financial instruments are as follows (in
    thousands):

                                               December 31, 2003                   December 31, 2002
                                             Carrying       Fair                 Carrying        Fair
                                             Amount        Value                 Amount         Value

      Cash                        $        10 $        10                    $          11   $          11
      Investments                   1,238,056   1,238,056                        1,081,362       1,081,362
      Accrued interest receivable       3,653       3,653                            5,042           5,042
      Member deposits                  11,522      11,522                           13,905          13,905
      Accounts payable and
       other liabilities                  136         136                             108             108
12. SHORT-TERM REVOLVING CREDIT FACILITY

    On July 15, 1999, the National Credit Union Administration signed a note purchase agreement with the
    Federal Financing Bank on behalf of CLF. The agreement originally provided for a commitment amount
    of $20.7 billion. Subsequently, the agreement expired on September 30, 2002, and was extended through
    consecutive short-term revolving credit facility promissory notes. These promissory notes reduced the
    credit facility to $5 billion and expire yearly on the 31st of March. The current promissory note expires
    March 31, 2004.

                                                ******




                                                    11
INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL CONTROL OVER
 FINANCIAL REPORTING BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
 GOVERNMENT AUDITING STANDARDS

Inspector General
National Credit Union Administration

We have audited the financial statements of the National Credit Union Administration Central Liquidity
Facility (“CLF”) as of and for the year ended December 31, 2003, and have issued our report thereon dated
February 24, 2004. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States.

Compliance

As part of obtaining reasonable assurance about whether the CLF financial statements are free of material
misstatement, we perform tests of its compliance with certain provisions of laws, regulations, contracts, and
grants, noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions was not an objective
of our audit and accordingly, we do not express such an opinion. The results of our tests disclosed no
instances of noncompliance that are required to be reported under Government Auditing Standards.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the CLF’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements and not to provide assurance on the internal control over financial reporting. Our consideration of
the internal control over financial reporting would not necessarily disclose all matters in the internal control
over financial reporting that might be material weaknesses. A material weakness is a condition in which the
design or operation of one or more of the internal control components does not reduce to a relatively low level
the risk that misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. We noted no matters involving the internal control over financial
reporting and its operation that we consider to be material weaknesses.

However, we noted other matters involving the internal control over financial reporting that we have reported
to the management of the CLF in a separate letter dated February 24, 2004.

This report is intended solely for the information and use of the Inspector General, the Board of the National
Credit Union Administration, and the management of the National Credit Union Administration Central
Liquidity Facility and is not intended to be and should not be used by anyone other than these specified
parties.



February 24, 2004



                                                      12
National Credit Union
Administration
Community Development
Revolving Loan Fund
Financial Statements for the Years Ended
December 31, 2003 and 2002, and
Independent Auditors’ Reports




                                           1
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS

                                                               Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS            3

FINANCIAL STATEMENTS FOR THE YEARS ENDED
  DECEMBER 31, 2003 AND 2002:

 Balance Sheets                                                 4

 Statements of Operations                                       5

 Statements of Changes in Fund Balance                          6

 Statements of Cash Flows                                       7

 Notes to Financial Statements                                 8-11

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL
  CONTROL OVER FINANCIAL REPORTING BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS    12




                                         2
INDEPENDENT AUDITORS’ REPORT


Inspector General
National Credit Union Administration

We have audited the accompanying balance sheets of the National Credit Union Administration Community
Development Revolving Loan Fund (“CDRLF”) as of December 31, 2003 and 2002, and the related
statements of operations, changes in fund balance, and cash flows for the years then ended. These financial
statements are the responsibility of the CDRLF’s management. Our responsibility is to express an opinion on
these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Community Development Revolving Loan Fund as of December 31,
2003 and 2002, and the results of its operations and its cash flows for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 24, 2004,
on our tests of the National Credit Union Administration Community Development Revolving Loan Fund’s
compliance with certain provisions of laws, regulations, contracts, and grants and on our consideration of its
internal control over financial reporting. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.



February 24, 2004




                                                        3
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
DECEMBER 31, 2003 AND 2002


ASSETS                                          2003             2002

 Cash and cash equivalents (Note 2)       $ 8,962,039      $ 5,496,705
 Loans—net of allowance (Note 4)            5,298,019        7,754,404
 Interest receivable                           20,004           40,087

TOTAL ASSETS                              $ 14,280,062     $ 13,291,196


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accrued technical assistance             $     142,692    $     106,978

       Total liabilities                        142,692          106,978

FUND BALANCE:
 Revolving fund capital (Note 3)              13,031,596       12,303,548
 Accumulated earnings                          1,105,774          880,670

       Total fund balance                     14,137,370       13,184,218

TOTAL LIABILITIES AND FUND BALANCE        $ 14,280,062     $ 13,291,196


See notes to financial statements.




                                      4
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2003 AND 2002


                                                            2003         2002

SUPPORT AND REVENUES:
 Interest on cash equivalents                             $ 84,369     $ 97,588
 Interest on loans                                          98,901      158,188
 Appropriation revenue                                     266,359      442,121

      Total                                                 449,629     697,897

EXPENSES:
 Technical assistance                                      (400,486)    (542,067)
 Reduction of (provision for) allowance for loan losses     175,961      (86,827)

      Total                                                (224,525)    (628,894)

EXCESS OF SUPPORT AND REVENUES
 OVER EXPENSES                                            $ 225,104    $ 69,003


See notes to financial statements.




                                                     5
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2003 AND 2002


                                                        2003           2002

FUND BALANCE, BEGINNING OF YEAR                     $ 13,184,218   $13,557,336

 Change in unexpended appropriations:
  Operating appropriations received (Note 3)            994,407
  Appropriation revenue recognized (Note 3)            (266,359)      (442,121)

 Excess of support and revenues over expenses           225,104         69,003

FUND BALANCE, END OF YEAR                           $ 14,137,370   $ 13,184,218


See notes to financial statements.




                                                6
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2003 AND 2002


                                                                                  2003              2002

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of support and revenues over expenses                                $    225,104     $      69,003
 Adjustments to reconcile the excess of support
  and revenues over expenses to net cash
  (used in) provided by operating activities:
  Change in unexpended appropriations                                            (266,359)         (442,121)
  Provision for(reduction of) allowance for loan losses, net of recoveries       (159,851)           86,827
  Changes in assets and liabilities:
   Decrease in interest receivable                                                 20,083            16,266
   (Decrease) increase in accrued technical assistance                             35,714           (89,422)

       Net cash used in operating activities                                     (145,309)         (359,447)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                                       3,496,233         3,717,342
 Loan disbursements                                                               (879,997)       (2,719,000)

       Net cash provided by investing activities                                 2,616,236          998,342

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received—revolving fund capital                                   994,407

       Net cash provided by financing activities                                  994,407               -

NET INCREASE IN CASH AND CASH EQUIVALENTS                                        3,465,334          638,895

CASH AND CASH EQUIVALENTS—Beginning of year                                      5,496,705        4,857,810

CASH AND CASH EQUIVALENTS—End of year                                        $ 8,962,039      $ 5,496,705


See notes to financial statements.




                                                      7
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2003 AND 2002


1.   NATURE OF ORGANIZATION

     The Community Development Revolving Loan Fund for Credit Unions (“CDRLF”) was established by
     an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic development in
     low-income communities. The National Credit Union Administration (“NCUA”) and the Community
     Services Association (“CSA”) jointly adopted Part 705 of NCUA Rules and Regulations, governing
     administration of the Fund, on February 28, 1980.

     Upon the dissolution of CSA in 1983, administration of the CDRLF was transferred to the Department
     of Health and Human Services (“HHS”). Because HHS never promulgated final regulations governing
     the administration of the CDRLF, the Fund was dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
     transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to Part 705
     of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
     participating credit unions in 1990.

     The purpose of the CDRLF is to stimulate economic activities in the communities served by low-income
     credit unions which will result in increased income, ownership and employment opportunities for low-
     wealth residents and other economic growth. The policy of NCUA is to revolve the loans to qualifying
     credit unions as often as practical in order to gain maximum impact on as many participating credit
     unions as possible.

2.   SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting—The CDRLF reports its financial statements on the accrual basis of accounting.

     Cash Equivalents—The Federal Credit Union Act permits the CDRLF to make investments in United
     States Government Treasury securities. All investments in 2003 and 2002 were cash equivalents and are
     stated at cost which approximates fair value. Cash equivalents are highly liquid investments with
     original maturities of three months or less.

     Allowance for Loan Losses—The CDRLF records a provision for estimated loan losses. Loans
     considered to be uncollectible are charged to the allowance for loan losses. Management continually
     evaluates the adequacy of the allowance for loan losses based upon prevailing circumstances and an
     assessment of collectibility risk of the total loan portfolio. Accrual of interest is discontinued on non-
     performing loans when management believes collectibility is doubtful. At December 31, 2003 and 2002,
     there were no nonaccrual loans.

     Salary and Operating Expenses—NCUA provides certain general and administrative support to the
     CDRLF, including office space, salaries, and certain supplies. The value of these contributed services is
     not charged to the CDRLF.



                                                      8
     Revenue Recognition—Appropriation revenue is recognized as the related technical assistance expense
     is recognized. Total appropriation revenues will differ from total technical assistance expenses because
     not all technical assistance is funded by appropriations.

     Use of Estimates—The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     The CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending and
     technical assistance, is limited by Congress to a total of the $12,303,548 appropriated for the CDRLF
     plus accumulated earnings. Federally chartered and state-chartered credit unions may participate in the
     CDRLF’s Community Loan Fund. Loans may only be made to low-income credit unions as defined by
     the NCUA.

     NCUA Rules and Regulations section 705.7 permit the classification of the loan in the participating
     credit union’s accounting records as either a note payable or a nonmember deposit. As a nonmember
     deposit, an amount not to exceed $100,000 per credit union is insured by the National Credit Union
     Share Insurance Fund (“NCUSIF”). The covered amount of loans recorded as nonmember deposits by
     participating credit unions insured by the NCUSIF totaled approximately $3,730,636 and $6,188,000 at
     December 31, 2003 and 2002, respectively. Under the CDRLF Loan Program, loans recorded in the
     credit union’s accounting records as notes payable may be collateralized.

     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued between January 1,
     1995, and December 31, 1998, carry a fixed interest rate of 3%; loans issued between January 1, 1999, and
     December 31, 2001, carry a fixed rate of 2%; and loans issued after January 1, 2002, carry a fixed rate of
     1%. Interest and principal are repaid on a semiannual basis beginning six months and one year,
     respectively, after the initial distribution of the loan. The maximum term of each loan is five years.
     Participating credit unions are required to match the value of the loan within one year of the date of
     approval of the loan.

     During the year ended December 31, 2003, appropriations for loans and technical assistance in the amount
     of $994,407 were received. Of this amount, $298,050 was designated to be used as operating
     appropriations for technical assistance and $696,357 was designated to be used as revolving fund capital.
     For the appropriations received, monies expire on September 30, 2004.

                                                                   Public Law      Public Law
       Activities by each appropriation, from inception            No. 107-73      No. 106-377         Total

        Operating appropriation received                          $ 696,357       $ 298,050        $ 994,407
        Appropriation revenue recognized                           (696,357)       (298,050)        (994,407)

        Balance, December 31, 2003                                $      -        $      -         $     -




                                                       9
                                                                                  2003                2002

       Unexpended appropriations:
        Balance, beginning of the year                                      $        9,348     $      451,469
        Operational appropriations received                                        994,407
        Appropriation revenue recognized                                          (266,359)          (442,121)

       Balance, end of year                                                 $     737,396      $        9,348

       Revolving fund capital:
        Balance, beginning of the year                                      $ 12,303,548       $ 12,745,669
        Appropriations—revolving fund capital
        Change in unexpended appropriations                                       728,048            (442,121)

      Balance, end of year                                                  $ 13,031,596       $ 12,303,548
4.   LOANS

     Loans outstanding at December 31, 2003 and 2002, are scheduled to be repaid during the following
     subsequent years:

                                                                                  2003              2002

       Year 1                                                               $ 1,676,793       $ 2,213,135
       Year 2                                                                 1,713,228         2,067,690
       Year 3                                                                   849,821         2,008,000
       Year 4                                                                   788,718           951,400
       Year 5                                                                   409,459           814,030

                                                                                5,438,019       8,054,255

       Less allowance for loan losses                                           (140,000)          (299,851)

       Net loans outstanding                                                $ 5,298,019       $ 7,754,404
     Changes in the allowance for loan losses are summarized below:

                                                                                  2003           2002

       Balance, beginning of year                                           $ 299,851         $ 213,024
       Loans recovered                                                         16,109
       Provision for (reduction of) allowance for loan losses                (175,960)          86,827

      Balance, end of year                                                  $ 140,000         $ 299,851
5.   CONCENTRATION OF CREDIT RISK

     At December 31, 2003 and 2002, there are no significant concentrations of credit risk in the loan
     portfolio. As discussed in Note 1, the CDRLF provides loans to credit unions that serve predominantly
     low-income communities.




                                                     10
6.   ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in accordance
     with the requirements of Statement of Financial Accounting Standards No. 107, Disclosures about Fair
     Value of Financial Instruments. The methods and assumptions used in estimating the fair value
     disclosures for financial instruments are as follows:

     Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents approximate fair
     values.

     Interest Receivable and Accrued Technical Assistance—Such items are recorded at book values, which
     approximate the respective fair values.

     Loans—The fair value is estimated by discounting projected future cash flows using current market
     interest rates. For purposes of this calculation, the discount rate used was the prime interest rate plus two
     percent (6.00% at December 31, 2003 and 6.25% at December 31, 2002).

     The carrying amount and the estimated fair value of the CDRLF’s financial instruments are as follows:
                                                       December 31, 2003                December 31, 2002
                                                      Carrying   Estimated             Carrying   Estimated
                                                      Amount     Fair Value            Amount     Fair Value

       Assets:
        Cash and cash equivalents                 $ 8,962,039     $ 8,962,039      $ 5,496,705     $ 5,496,705

        Interest receivable                       $     20,004    $   20,004       $     40,087    $    40,087

        Loans                                     $ 5,438,019     $ 5,070,631      $ 8,054,225     $ 7,681,555
        Allowance for loan losses                    (140,000)       (140,000)        (299,851)       (299,851)

        Loans, net of allowance                   $ 5,298,019     $ 4,930,631      $ 7,754,404     $ 7,381,704

       Liabilities:
        Accrued technical assistance              $ 142,692       $ 142,692        $ 106,978       $ 106,978
     It is the intent of the CDRLF to hold its loans to maturity. The CDRLF anticipates realizing the carrying
     amount in full. Fair value is less than the carrying amount because loans are made at less than market
     interest rates.

                                                  ******




                                                        11
INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS

Inspector General
National Credit Union Administration

We have audited the financial statements of the National Credit Union Administration Community
Development Revolving Loan Fund (“CDRLF”) as of and for the year ended December 31, 2003, and have
issued our report thereon dated February 24, 2004. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States.

Compliance

As part of obtaining reasonable assurance about whether the CDRLF’s financial statements are free of
material misstatement, we perform tests of its compliance with certain provisions of laws, regulations,
contracts, and grants, noncompliance with which could have a direct and material effect on the determination
of financial statement amounts. However, providing an opinion on compliance with those provisions was not
an objective of our audit and accordingly, we do not express such an opinion. The results of our tests
disclosed no instances of noncompliance that are required to be reported under Government Auditing
Standards.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the CDRLF’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements and not to provide assurance on the internal control over financial reporting. Our consideration of
the internal control over financial reporting would not necessarily disclose all matters in the internal control
over financial reporting that might be material weaknesses. A material weakness is a condition in which the
design or operation of one or more of the internal control components does not reduce to a relatively low level
the risk that misstatements in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. We noted no matters involving the internal control over financial
reporting and its operation that we consider to be material weaknesses.

However, we noted other matters involving the internal control over financial reporting that we have reported
to the management of the CDRLF in a separate letter dated February 24, 2004.

This report is intended solely for the information and use of the Inspector General, the Board of the National
Credit Union Administration, and the management of the National Credit Union Administration Community
Development Revolving Loan Fund and is not intended to be and should not be used by anyone other than
these specified parties.



February 24, 2004


                                                      12
